                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM


I    Case Number: A081 10060                                                                     Page 1 of 1



                 NSF OIG received an allegation of plagiarism within an NSF proposal. Our inquiry confirmed
             that the subject' had plagiarized a small amount of text directly from documents available on the
             internet. A letter was sent to the subject requesting his perspective of the allegation. The subject
             claimed the text was common knowledge in his field, however, he copied multiple verbatim
             sentences without providing appropriate attribution. Based on the small amount of copied text, we
             sent a questionable research practices letter to the subject recommending he improve his citation
             practice.

                       Accordingly, this case is closed and no further action will be taken..




I['
    NSF OIG Form 2 (11102)
